No. 20-297
IN THE

TRANS UNION LLC.,
Petitioner,

v.
SERGIO L. RAMIREZ,

Respondent.
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae Electronic Privacy Information Center in Support of Respondent complies
with the word limitations set forth by the Rules of the Court. I certify that the Brief
contains 7,541 words, not counting the portions excluded by Supreme Court Rule
33.1(d).
I declare that under penalty of perjury that the foregoing is true and correct.
Executed on March 8, 2021.
/s/ Alan Butler
Alan Butler
Electronic Privacy Information
Center (EPIC)
1519 New Hampshire Ave N.W.
Washington, DC 20036
(202) 483-1140
butler@epic.org

